Lea
I

COCKLE

 

 

2311 Douglas Street L B f E-Mail Address:
ap al rie
Omaha, Nebraska 68102-1214 es Est on contact@cocklelegalbriefs.com
e 3
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 21-21

CAROLINE ROSS,
Petitioner,
v.
JUDSON INDEPENDENT SCHOOL DISTRICT,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of August, 2021, send out
from Omaha. NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

KATIE E. PAYNE

Counsel of Record
D, CRAIG WOOD
WALSH GALLEGOS TREVINO
KYLE & ROBINSON P.C.
1020 N.E. Loop 410, Ste. 450
San Antonio, Texas 78209
Telephone: (210) 979-6633
Facsimile: (210) 979-7024
kpayne@wabsa.com

Counsel for Respondent

Subscribed and sworn to before me this 9th day of August, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska K Chby
RENEE J. GOSS ( dud rawr .

My Comm, Exp. September 5, 2023

 

 

Notary Public Affiant 41201
Larry Warner

513 East Jackson Street

Suite 301

Harlingen, Texas 78550
956-230-0361
office@larry@larrywarner.com
